BECKER GALLAGHER
Briefs

Supreme Court of the United States
United States Courts of Appeals

and Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Brief of Kentucky, Alaska, Arizona,
Arkansas, Georgia, Idaho, Kansas, Louisiana,
Mississippi, Montana, Nebraska, Ohio, Oklahoma,
South Carolina, South Dakota, Tennessee, Texas,
Utah, and West Virginia as Amici Curiae in Support of
the Petitioner in 20-639, Calvary Chapel Dayton Valley
v. Steve Sisolak, Governor of Nevada, et al., was sent
via Next Day Service to the U.S. Supreme Court, Next
Day and e-mail service to the following parties listed
below, this 10th day of December, 2020:
David Andrew Cortman
Alliance Defending Freedom
1000 Hurricane Shoals Road, NE
Suite D-1100
Lawrenceville, GA 30043
(703) 390-774
dcortman@adflegal.org
Counsel for Petitioner

Aaron D. Ford
Attorney General
Craig A. Newby
Deputy Solicitor General
Office of the Nevada Attorney General
555 E. Washington Avenue, Suite 390
Las Vegas, NV 89101
cnewby@ag.nv.gov

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
I
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Brian Hardy
Kathleen Wilde
Marquis Aurbach Coffing
10001 Park Run Drive
Las Vegas, NV 89145
bhardy@maclaw.com
kwilde@maclaw.com
Counsel for Respondents
S. Chad Meredith
Solicitor General
Counsel of Record
Office of the Kentucky
Attorney General
700 Capitol Ave., Ste.118
Frankfort, KY 40601
(502) 696-5300
Chad.Meredith@ky.gov
Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on December 10, 2020.

l li'ULCt

Donna J. Wolf
Becker Gallagher Legal Pu s · g, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

Date:

{1£.rvtl>-.w_ I°:)· J.oJ--0

;/j;·�c8ett&fb

Notary Public
[seal]

BIANCA BECKER

Notary Public, State of Oh.io
My Commission Expire§
February 14, 2023

